              OFFICE OF
              INSPECTOR
              GENERAL
              UNITED STATES POSTAL SERVICE




            2009 Pay for Performance
                    Program
                       Audit Report




                                             August 8 2011

Report Number HR-AR-11- 006
                                                                          August 8, 2011

                                                  2009 Pay for Performance Program

                                                         Report Number HR-AR-11-006




IMPACT ON:
Executive Administrative Schedule             Management clearly define in policy the
(EAS) employees.                              relationship between the National
                                              Performance Assessment and core
WHY THE OIG DID THE AUDIT:                    requirements; establish and implement
Our objective was to determine whether        mandatory training that educates new
the Postal Service complied with Pay for      and existing participants and managers;
Performance (PFP) policies and                and evaluate the effectiveness of
procedures in determining fiscal year         establishing and using behavioral core
(FY) 2009 EAS employee final ratings          objectives to rate employees’
for field supervisors, postmasters, and       performance.
managers
                                              WHAT MANAGEMENT SAID:
WHAT THE OIG FOUND:                           Management agreed with
Managers lowered core requirement             recommendations 1 and 3 and partially
ratings inconsistent with PFP policies        agreed with recommendation 2 and will
and procedures. Specifically, 46 percent      consult with the management
of the evaluators, and 40 percent of the      associations on changes to PFP policy
second-level reviewers responsible for        and core requirements. However,
rating 59 sampled employees lowered           management disagreed with the
employee ratings because they either          sampling methodology used to conduct
were instructed to do so or believed          the audit, asserting the sample size was
ratings should be in line with unit scores.   too small given the large number of PFP
Managers also used numeric targets to         participants and, therefore, the findings
rate postmasters’ core requirements           were not representative of the program
contrary to policy.                           as a whole.

PFP policy states employees should be         AUDITOR COMMENT:
rated based on agreed-upon objectives,        The OIG considers management’s
targets, and individual achievements          comments responsive, and corrective
and that numeric targets are not set for      actions should resolve the issues
behavioral objectives.                        identified in the report. Regarding our
                                              sampling methodology, we used random
WHAT THE OIG RECOMMENDED:                     attribute sampling, in which the
We recommend the executive vice               sampling precision is not affected by the
president and chief human resources           population size.
officer, in coordination with the vice
president, Employee Resource                  Link to review the entire report
August 8, 2011

MEMORANDUM FOR:            ANTHONY J. VEGLIANTE
                           EXECUTIVE VICE PRESIDENT AND
                           CHIEF HUMAN RESOURCES OFFICER

                           DEBORAH GIANNONI-JACKSON
                           VICE PRESIDENT, EMPLOYEE RESOURCE
                           MANAGEMENT

                                 E-Signed by Mark Duda
                              VERIFY authenticity with e-Sign




FROM:                      Mark W. Duda
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Audit Report – 2009 Pay for Performance Program
                           (Report Number HR-AR-11-006)

This report presents the results of our audit of the U.S. Postal Service’s 2009 Pay for
Performance program (Project Number 10YG034HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Doug A. Tulino
    Megan J. Brennan
    Sean M. Lacey
    Corporate Audit and Response Management
                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Core Requirement Ratings Were Lowered...................................................................... 2

Numeric Targets Used to Rate Postmasters ................................................................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Management’s Comments ........................................................................ 10
2009 Pay for Performance Program                                                                        HR-AR-11-006




Introduction

This report presents the results of our audit of the U.S. Postal Service’s Pay for
Performance (PFP) program (Project Number 10YG034HR000). The report responds to
a request from the National Association of Postal Supervisors (NAPS), the National
League of Postmasters, and the National Association of Postmasters of the U.S. Our
objective was to determine whether the Postal Service complied with PFP policies and
procedures 1 in determining fiscal year (FY) 2009 Executive Administrative Schedule
(EAS) employee final ratings for field supervisors, postmasters, and managers. This
audit addresses operational risk. See Appendix A for additional information about this
audit.

The PFP program focuses on three key elements: improving accountability for individual
contributions to organizational success, providing clear expectations and feedback on
progress toward target outcomes, and rewarding and recognizing exceptional individual
performance for achieving challenging objectives. The PFP Program is designed to:

   Provide clear performance expectations.
   Provide regular feedback on individual and organizational performance.
   Link individual contributions to organizational success.
   Recognize and reward performance at different levels.
   Ensure accountability at all levels of the organization.

EAS employees 2 participating in the program rely on their PFP rating for their annual
salary increase and any lump sum awards. EAS employees do not receive step
increases or other automatic increases to their salaries. Under the PFP program, 3
managers evaluate employees based on the National Performance Assessment (NPA) 4
and performance against individual core requirements,5 which are established through
an interactive process between employees and their supervisors. The management
associations stated that the Postal Service failed to comply with PFP policies and
procedures.6 Specifically, NAPS stated that, in many cases, managers concurred with
members regarding their FY 2009 work accomplishments only to have a higher level of
management arbitrarily lower the scores.




1
  FY 2009 PFP Program Administrative Rules for EAS Employees, Version FY 09-3, November 2008; and Guidelines
Covering PFP for EAS Employees.
2
  Non-bargaining employees in supervisory, professional, technical, clerical, administrative, and managerial positions.
3
  Program participants include EAS employees and those in the Postal Career Executive Service (PCES). However,
the focus of the audit was EAS employees.
4
  A stand-alone, web-based program that collects performance-related metrics, such as retail revenue, on-time
              ®
Express Mail delivery, and so forth, from source systems across the organization. NPA supports the PFP program.
5
  Individual core requirements are a mechanism for employees to identify their personal contributions to unit and
corporate success.
6
  FY 2009 PFP Program Administrative Rules for EAS Employees, Version FY 09-3, November 2008.
                                                          1
2009 Pay for Performance Program                                                                       HR-AR-11-006



Conclusion

We determined that individuals responsible for evaluating or approving sampled
employees’ FY 2009 core requirement ratings were not compliant with PFP policies and
procedures. Specifically, we found that managers lowered core requirement ratings in a
manner inconsistent with PFP policies and procedures, which state that employees
should be rated on these requirements based on agreed-upon objectives and targets
and that end-of-year ratings should reflect employees’ individual achievements. In
addition, managers used numeric targets to rate postmasters on their core
requirements, which they are supposed to base on behavioral objectives.

Core Requirement Ratings Were Lowered

We interviewed 59 randomly selected EAS employees, and 53 percent stated that their
final core requirement ratings were lower than expected based on end-of-year
discussions they had with their supervisors. 7 In addition, a review of evaluations for
sampled employees showed that some evaluators’ written end-of-year comments did
not always match the core requirement ratings given to employees. For example:

   One evaluator wrote, “On this indicator, the office’s Delivery Point Sequence percent
    increased by +3.26 percent ending up in the exceptional contributor category in
    accordance to the goals issued at the beginning of FY 09, thank you for your
    contributions.” However, the employee in question received a rating of “contributor.”

   In another instance, comments on an employee’s appeal reflect that the evaluator
    and second-level reviewer concurred that the employee’s performance on one of the
    core requirements merited an exceptional rating of 15, yet the next level reviewer
    lowered the rating to a three. 8

Forty-six percent of the evaluators9 responsible for rating 59 employees stated the core
requirement ratings they submitted for the employees were lowered at the next review
level. 10 Additionally, 40 percent of the second-level reviewers we interviewed indicated
they did lower the employees’ ratings. 11 The most common reason given for lowering
the ratings was that they were either instructed by a superior to bring ratings in line with
NPA unit scores or they changed them believing the ratings needed to be more in line
with NPA unit scores. For example:



7
  We sought access to the Performance Evaluation System (PES) to review rating inputs. However, after consulting
with Postal Service officials, we determined such access was cost-prohibitive.
8
  The PCES cluster executive or area vice president must review and approve core requirements ratings that are
five points or more higher or lower than the employee’s NPA composite summary rating, as appropriate.
9
  First-line supervisors responsible for evaluating employees’ performance.
10
   We statistically project that 57 percent of the evaluators responsible for rating the 908 employees included in our
audit population would state the core requirement ratings they submitted for their employees were lowered at the next
review level.
11
   We statistically project that at least 45 percent of the second-level reviewers for the 908 employees would state
that employees’ core requirement ratings were lowered.


                                                          2
2009 Pay for Performance Program                                                                     HR-AR-11-006



    A district manager stated the area vice president verbally instructed all district
     managers in the area to align employees’ core requirement ratings with the average
     NPA unit score for their districts. As a result, the manager reviewed and lowered the
     core requirement ratings for 606 employees.12

    Another district manager stated managers lowered core requirement ratings after
     reviewing a sample of ratings in that district and determining that they were
     disproportionate to the district’s NPA score. Typically, a district manager only
     reviews the PFP of direct reports and employees whose core requirement ratings
     are identified as ‘non-contributor’ or ’exceptional’ by the PES. 13

    A plant manager who was a second-level reviewer arbitrarily lowered an employee’s
     core requirement rating to avoid the additional scrutiny associated with giving the
     employee a rating five points or more over the NPA score.

Other reasons evaluators or second-level review managers gave for lowering
employees’ core requirement ratings included:

    The selected performance targets were too easy.

    There was concern about the public’s reaction to employees receiving bonuses
     given the Postal Service’s financial condition.

    Employees’ performance was not commensurate with that of other individuals in
     similar positions and same-size offices.

According to PFP policies and procedures, 14 employees receive end-of-year core
requirement ratings based on their performance. Specifically, the policy states that “an
end-of-year performance evaluation review pulls together contributions to unit and
corporate performance indicators and individual core requirements. This performance
evaluation serves as the foundation for an annual pay action for most EAS employees.”
The vice president, Human Resources Management, stressed the importance of this
policy in an August 2009 memorandum stating, “Once established, core ratings must
reflect what the employee achieved and should not be arbitrarily changed.” A
November 2009 memorandum from the vice president, Labor Relations, further
emphasized this policy in addition to stating that the evaluator is the best source for
determining performance and that employees should be rated based on their personal
contributions toward attaining agreed-upon core requirement targets.




12
   The audit team was unable to interview                         in question because the individual has been on
extended leave.
13
   A national system used to record individual core requirements, progress toward achieving those goals, and
end-of-year ratings for employees.
14
   FY 2009 Pay-for-Performance Program Administrative Rules for EAS Employees, Version FY 09-3,
November 2008.


                                                         3
2009 Pay for Performance Program                                                                         HR-AR-11-006



Of the 59 sampled employees interviewed, 56 appealed their ratings. Although
19 employees’ individual core requirement ratings were raised, only four employees’
overall performance ratings were raised.

Arbitrarily lowering employees’ end-of-year ratings can affect employee morale and their
potential wage increases and bonuses, promotions, retirement annuity calculations, and
Thrift Savings Plan contributions.

Numeric Targets Used to Rate Postmasters

We determined that in our sample nine of the 11 evaluators who rated postmasters
used numeric targets to evaluate the postmasters on their behavioral core
requirements. 15 Examples of numeric targets used include scan performance, 16 retail
revenue, eFlash 17 reports, and total operating expenses. Evaluators gave different
reasons for using numeric targets including:

    Finding it difficult to measure and communicate how well employees met their
     behavioral core requirements without using numeric targets.

    Acting or new managers relying on eFlash reports to rate employees.

In addition to conflicting with existing policies and procedures, the practice of using
numeric targets to rate postmasters on their behavioral core requirements duplicates
the NPA rating, which also uses many of the numeric factors described previously to
generate the unit score. The NPA unit score and behavioral core requirement scores
are combined to determine the postmasters’ overall end-of-year rating.

PFP policies and procedures18 stipulate that postmasters are to be rated on two core
requirements — Communication and Leadership and Fiscal Management — which
consist of behavioral objectives. As such, numeric targets and trackable systems are
not set for the behavioral objectives.

When managers do not comply with PFP policies and procedures, they can
compromise the integrity of the program and undermine the accuracy and validity of
employee evaluations.




15
   We statistically project that evaluators for at least 76 percent of postmasters in our population used numeric targets
to evaluate postmasters’ behavioral core requirements.
16
   A score calculated by dividing the number of actual scans by the number of expected scans for a given mailpiece.
17
   A weekly operating reporting management system, which combines data from delivery, mail processing, employee
relations, labor relations, and finance.
18
   Guidelines Covering PFP for EAS Employees, Version 3.1, February 2008.


                                                            4
2009 Pay for Performance Program                                               HR-AR-11-006



Recommendations

We recommend the executive vice president and chief Human Resources officer, in
coordination with the vice president, Employee Resource Management:

1. Clarify policies and procedures to better define the relationship between the national
   performance assessment and core requirements, and the role of higher level
   management in the pay for performance process.

2. Establish and implement mandatory training events that educate new and existing
   participants and managers on policy, roles and responsibilities, goal setting, and the
   program’s objectives.

3. Evaluate the effectiveness of the current process used to establish and use
   behavioral core objectives to rate employees’ performance.

Management’s Comments

Management disagreed with the methodology used to conduct the audit and stated they
did not believe all findings to be representative of the program as a whole. However,
they agreed that in the instances cited, that the way the higher level ratings review and
approval process was administered may have been inconsistent with the written
program policies. Management also agreed with recommendations 1 and 3, and
partially agreed with recommendation 2.

Regarding recommendation 1, management stated that they are currently in
consultation with the management associations regarding the PES and PFP for 2011
and beyond. Management also stated that communication to the field about 2011 PES
and PFP will address this recommendation. With regard to recommendation 2,
management stated they believe that the series of quick start guides for all participants
and evaluators posted on the web is a good foundation and will update these materials
for any program changes, which will include a segment in the required training for new
supervisors and postmasters. Concerning recommendation 3, management provided
supplemental documentation indicating agreement with this recommendation. They
stated they will include a discussion about the core objectives (requirements) for
postmasters in their ongoing consultations with the management associations.

Additionally, management stated that our sample size of 59 employees, out of 908 who
complained about their rating, represents only 1.5 percent of the more than 60,000 PFP
participants. They added that to conduct an audit of a national program based on
interviews with only 59 PFP participants is statistically invalid. Management specifically
disagreed with our projection contained in footnote 15 that evaluators for at least
76 percent of postmasters used numeric targets to evaluate postmasters’ behavioral
core requirements, and do not believe this is statistically valid given the way the audit
was conducted. Further, management indicated that the U.S. Postal Service Office of
Inspector General (OIG) does not appear to acknowledge that higher level disapproval



                                            5
2009 Pay for Performance Program                                              HR-AR-11-006



of an evaluator’s rating is part of the PFP process and took exception to certain
statements they considered unsubstantiated.

In subsequent documentation received from management, they provided a target
implementation date of November 30, 2011, for all three recommendations. See
Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive, and corrective actions should
resolve the issues identified in the report. In reference to recommendation 2, we would
like to note that we agree that posting the quick start guides may be “a good
foundation;” and including a PFP segment in the required training for new supervisors
and postmasters will also assist with awareness of the program. However, neither of
these actions will ensure that all participants of the program receive the training
necessary to implement the program in accordance with Postal Service policies and
procedures. Mandatory training for all participants would ensure that the information is
appropriately distributed, and demonstrate the value Postal Service executives assign
to the program.

With regard to our sample size of 59 PFP participants, we used a random attribute
sampling methodology. Attribute sampling is used to measure what proportion of a
population has (or does not have) a given attribute. Furthermore, the sampling precision
is not affected by the population size in attribute sampling. A population could be
increased exponentially, but it would have little or no effect on the required sample size
to achieve a given precision at a given confidence level. The largest sample size
required for any random attribute sample is 196. Thus, our statistical projections to the
908 employees in the audit population are valid.

Regarding higher level disapproval of ratings, we are aware that this review of
evaluator’s ratings is part of the PFP process and that this check and balance to the
system is necessary. However, the higher level review process should not be used to
arbitrarily change employee ratings in a manner inconsistent with policy.

Additionally, management identified report language it claimed was “unsubstantiated
opinion,” such as how arbitrarily lowering employees’ end-of-year ratings can affect
morale and impact wages, bonuses, promotions, retirement annuity calculations, and
TSP contributions. We based our conclusion on the more than 100 interviews
conducted with postal supervisors and managers during which we noted a clear impact
on morale. Also, we cited the impact on wages, bonuses, promotions, and retirement
annuity calculations based on the attributes of the PFP system and how it relates to
these elements.

The OIG considers all the recommendations significant; and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the



                                            6
2009 Pay for Performance Program                                             HR-AR-11-006



Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            7
2009 Pay for Performance Program                                                HR-AR-11-006




                            Appendix A: Additional Information

Background

The FY 2010 Comprehensive Report on Postal Operations contains the following
description of the PFP program:

        The Postal Service's Pay-for-Performance (PFP) program
        continued to drive organizational achievement. Unlike most
        government agencies that provide regular, across-the-board pay
        increases, PFP is the sole source of annual pay adjustments for
        non-bargaining unit employees. PFP has been cited by several
        independent entities as a model for other agencies to emulate.
        The foundation of the system is a balanced scorecard of
        objective, independently-verifiable measures of service, employee
        engagement, and financial performance. Performance indicators
        are measured at national, area, district, business unit, and
        individual levels so that meaningful performance distinctions are
        made within the line-of-sight of all managers.

The PFP program uses two systems to arrive at a score, measuring an employee’s
performance — the NPA and PES. Objective NPA performance indicators are
established at the corporate and unit levels and tracked via the NPA. Individual core
requirements are populated in the PES and targets for these requirements are
established at the local level and tracked via the system. Employees and their
supervisors establish individual core requirements through an interactive process. Core
requirements for EAS employees include one or more behavioral objectives, developed
with predetermined performance expectations and targets. Postmasters have two
behavioral core requirements — Leadership and Communication and Fiscal
Management. Non-postmasters have four core requirements, including one behavioral
core requirement, which is Communication. Evaluators are to rate employees based on
their personal contributions toward attaining agreed-upon targets.

Evaluators use the PES to assign recommended core requirement ratings based on an
employee’s performance. The PES then combines the recommended core requirement
ratings with the score employees received on their NPA indicators. The combination of
the two ratings is then submitted for higher level concurrence.

Employees’ overall performance ratings are then used to determine salary increases
and any lump sum awards. The overall rating is calculated based on the weighted
outcomes for corporate and unit indicators and individual core requirements. The NPA
and individual core requirement summary ratings produce an outcome ranging from 1 to
15. This outcome, in turn, reflects an adjective rating of ‘non-contributor,’ ‘contributor,’
‘high contributor,’ or ‘exceptional contributor.’




                                             8
2009 Pay for Performance Program                                                                           HR-AR-11-006



According to Postal Service policies and procedures,19 overall performance ratings that
are three or more points higher or lower than the NPA score must be reviewed and
approved by the PCES cluster executive or area vice president, as appropriate.
Additionally, core requirement ratings that are five points higher or lower than the NPA
score must be reviewed and approved in the same manner. Further, the area vice
president must review and approve ratings of ‘non-contributor’ and ‘exceptional.’

Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service complied with PFP policies
and procedures in determining FY 2009 employee final ratings for field supervisors,
postmasters, and managers.

Our scope was the Postal Service PFP program and the process used to evaluate
sampled EAS employees in FY 2009. Our universe consisted of 908 employees who
expressed concern about their end-of-year ratings.

To accomplish our objective, we reviewed applicable Postal Service policies,
procedures, and pertinent documentation.

In addition, we developed a list of questions to use during interviews with sampled
employees, their evaluators, and their higher level reviewers. The sample design we
used allowed for statistical projection to the universe of the proportion of employees,
evaluators, or higher level reviewers who answered ‘yes’ or ‘no’ to a given question.
There were 66 districts represented in our audit population, of which we randomly
selected five. From each of the five selected districts, we randomly selected a total of
60 employees. The final sample size was 59 based on availability and consisted of
27 postmasters and 32 EAS field employees, the majority of whom were supervisors.
Results are reported at a 95-percent confidence level.

We interviewed PFP evaluators and second-level reviewers in the employees’
management chain. Overall, we interviewed 114 Postal Service officials based on our
sample design and interview requirements.

Additionally, we interviewed headquarters officials responsible for the PFP program. We
also obtained and reviewed copies of sampled employees’ end-of-year evaluations and
related eRecourse appeals 20 and used them during our interviews with employees and
field managers.

We conducted this performance audit from December 2010 through August 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those

19
   FY 2009 PFP Program Administrative Rules for EAS Employees.
20
  Part of the Performance Evaluation System used to capture employees appeals if they believe their core
requirement ratings do not substantially reflect a fair assessment of their individual contributions to the work unit.




                                                             9
2009 Pay for Performance Program                                                 HR-AR-11-006



standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on June 14 and July 15, 2011, and
included their comments where appropriate.

To assess the reliability of data generated from the PES, we discussed the employee
evaluations with Postal Service officials and compared the consistency of the
information with the data provided during interviews. We determined that the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                             10
2009 Pay for Performance Program                              HR-AR-11-006



                          Appendix B: Management’s Comments




                                         11
2009 Pay for Performance Program        HR-AR-11-006




                                   12
2009 Pay for Performance Program        HR-AR-11-006




                                   13
